 the LEAs’ public and private elementary and secondary school enrollment. The
remaining 15 percent is distributed to each LEA on a pro rata basis according to the
number of children living in poverty.

Each year in July, the Department provides a Grant Notification Letter to each State that
identifies the funding level for the flow-through components. Texas allocates IDEA, Part
B, § 611 funds to 1206 LEAs.

                                       AUDIT RESULTS
We determined that Texas complied with the new IDEA, Part B, § 611 funding formula
for FY 2000.

The following table represents the amounts Texas was required to allocate for FY 2000,
according to the Department’s Grant Notification Letter and the actual amounts that
Texas allocated.

Funding Component                   Grant Notification Letter            Texas Actual Funding
                                    Required Funding Amounts             Amounts
Total Minimum Flow
Through to LEAs                                       $319,724,950                        $319,724,950
LEA Base Allocation                                   $252,423,854                        $252,423,854
LEA Population/Poverty                                 $67,310,096                         $67,301,096
85% Population Allocation                             $57,205,932*                         $57,205,931
15% Poverty Allocation                                $10,095,164*                         $10,095,164

* OIG calculations from the Population/Poverty figure in the Grant Notification Letter.



                  OBJECTIVE, SCOPE AND METHODOLOGY
The objective of our audit was to determine if Texas complied with the new IDEA, Part
B, § 611 funding requirements for FY 2000.

To accomplish our objective, we –

    •   Obtained Texas’s formula allocation to all the LEAs, including the allocation
        breakdown of the base, population and poverty amounts for FY 2000.

    •   Interviewed state officials regarding the data used in the allocation formula, the
        methodology used in the formula, and other applicable procedures.

    •   Recalculated the allocation for all Texas LEAs.

    •   Performed limited data reliability tests on the data used in the allocation formula
        and found the data to be reliable for our purposes.


                                                     2
                          REPORT DISTRIBUTION LIST
                         CONTROL NO. ED-OIG/A06-C0001

Auditee                                             ED Action Official

Mr. Gene Lenz                                       Dr. Robert H. Pasternack
Senior Director                                     Assistant Secretary
Division of Special Education                       Office of Special Education and
Texas Education Agency                               Rehabilitative Services
W.B. Travis Building
1701 North Congress Ave.
Austin, TX 78701-1494


                              Other ED Officials/Staff (electronic copy)

Audit Liaison Officer                               Press Secretary
Office of Special Education and                     Office of Public Affairs
 Rehabilitative Services

Correspondence Control                              Assistant General Counsel
Office of General Counsel                           Office of the General Counsel

Assistant Secretary                                 Deputy Secretary
Office of Legislation and                           Office of the Deputy Secretary
    Congressional Affairs

Assistant Secretary                                 Chief of Staff
Office of Intergovernmental                         Office of the Secretary
   and Interagency Affairs

Director                                            Under Secretary
Financial Improvement and                           Office of the Under Secretary
   Post Audit Operations
Office of the Chief Financial Officer

Post Audit Group Supervisor                         Director
Financial Improvement and                           Office of Public Affairs
   Post Audit Operations
Office of the Chief Financial Officer

Indirect Cost Group Supervisor                      Regional Commissioner Rehabilitation Services
Financial Improvement and                           Administration, Region VI
   Post Audit Operations
Office of the Chief Financial Officer
